YOUR GUIDE TO CARD BENEFITS

Your Guide to Benefits
describes the benefits in
effect as of 4/1/14. Benefit
information in this guide replaces
any prior benefit information you
may have received. Please read
and retain for your records. Your
eligibility is determined by your
financial institution.
For more information
about the benefits
described in this guide, call
the Benefit Administrator
at 1-800-397-9010, or call
collect outside the U.S. at
303-967-1093.

Visa
Signature Card

For questions about your account, balance, or rewards points please call the customer service number on your
Visa Signature card statement.

Warranty Manager Service
What is this benefit?
Warranty Manager Service provides you with valuable features to help manage, use and even extend the
warranties of eligible items purchased with your Visa Signature card. You can access these features with a
simple toll-free call. Services include Warranty Registration and Extended Warranty Protection.
Who is eligible for this benefit?
You are eligible if you are a valid cardholder of an eligible Visa Signature card issued in the United States.
Why should I use Warranty Registration to register my purchases?
You’ll have peace of mind knowing that your purchases’ warranty information is registered and on file.
Although Warranty Registration is not required for Extended Warranty Protection benefits, you are encouraged
to take advantage of this valuable service. When arranging for a repair or replacement, instead of searching for
critical documents, you can just pick up the phone and call the Benefit Administrator.
How do I register my purchases?
To register an eligible purchase call 1-800-397-9010, or call collect outside the U.S. at 303-967-1093.
The Benefit Administrator will provide the address to which you can send in the item’s sales receipt and
warranty information so this key information can be kept on file for you.
How does Extended Warranty Protection work?
Extended Warranty Protection doubles the time period of the original manufacturer’s written U.S. repair
warranty up to one (1) additional year on eligible warranties of three (3) years or less for items purchased
entirely with your eligible Visa Signature card.
This benefit is limited to no more than the original price of the purchased item (as shown on your Visa Signature
card receipt), less shipping and handling fees, up to a maximum of ten thousand dollars ($10,000.00) per
claim and fifty thousand dollars ($50,000.00) per cardholder.
What about purchases made outside of the U.S.?
Purchases made outside of the U.S. are covered as long as you purchased the item entirely with your eligible
Visa Signature card and the eligible item has a valid original manufacturer’s written U.S. repair warranty of
three (3) years or less, store-purchased dealer warranty, or assembler warranty.
What types of purchases are not covered?
B
 oats, automobiles, aircraft, and any other
motorized vehicles and their motors, equipment, or
accessories, including trailers and other items
that can be towed by or attached to any motorized
vehicle
A
 ny costs other than those specifically covered
under the terms of the original manufacturer’s
written U.S. repair warranty, as supplied by the
original manufacturer, or other eligible warranty
 I tems purchased for resale, professional, or
commercial use

R
 eal estate and items which are intended to







become part of real estate including, but not
limited to, items that are hard-wired or hardplumbed, garage doors, garage door openers,
and ceiling fans
R
 ented or leased items or items purchased
on an installment plan and for which the entire
purchase price was not paid in full at the time of
the occurrence
C
 omputer software
M
 edical equipment
U
 sed or pre-owned items

Should I keep copies of receipts or any other records?
Not if you’ve already registered your purchase. If you have not registered your purchase, however, you should
keep copies of your Visa Signature card receipt, your store receipt, the original manufacturer’s written U.S.
warranty, and any other applicable warranty in the event that you need to file a claim, as these documents will
be required to verify your claim.

Continued on page 2 

Warranty Manager Service, continued

Filing an Extended Warranty Protection Claim
How do I file a claim?
Call the Benefit Administrator at 1-800-397-9010, or call collect outside the U.S. at 303-967-1093
immediately after the failure of a covered item.
Please Note: If you do not notify the Benefit Administrator within sixty (60) days after the product
failure, your claim may be denied.
The Benefit Administrator will ask you for some preliminary claim information, direct you to the appropriate
repair facility, and send you the appropriate claim form.
Gift recipients of eligible items are also covered by the claim process. However, a gift recipient must provide all
the documents necessary to fully substantiate the claim.
For faster filing, or to learn more about the Warranty Manager Service benefit, visit
www.visa.com/eclaims
What documents do I need to submit with my claim?
Complete and sign the claim form sent to you by the Benefit Administrator and submit it within ninety (90)
days of the product failure along with the following documents:
 Your Visa Signature card receipt
 The itemized store receipt
A
 copy of the original manufacturer’s written U.S.

warranty and any other applicable warranty

A
 description and serial number of the item, and

any other documentation deemed necessary to
substantiate your claim (this includes bills and, if
necessary, a copy of the maintenance record and
receipts)
 The original repair order

Please Note: All claims must be fully substantiated.
How will I be reimbursed?
If you have substantiated your claim and met the terms and conditions of the benefit, the item will be replaced
or repaired at the Benefit Administrator’s discretion, but for no more than the original purchase price
of the covered item as recorded on your Visa Signature card receipt, less shipping and handling fees, up
to a maximum of ten thousand dollars ($10,000.00) per claim, and a maximum of fifty thousand dollars
($50,000.00) per cardholder.
Under normal circumstances, reimbursement will take place within five (5) business days of receipt and
approval of all required documents.
What about repairs?
Extended Warranty Protection will pay the repair facility directly, or you may go to an authorized repair facility
and file a claim for reimbursement. Only valid and reasonable repairs made at the manufacturer’s
authorized repair facility are covered.
In either case, the Benefit Administrator’s payment, replacement, or repair made in good faith will fulfill the
obligation under the benefit.
Do I have to file with my insurance company?
No. However, if you have purchased or received a service contract or Extended Warranty, Extended Warranty
Protection is supplemental to, and excess of, that coverage.
ADDITIONAL PROVISIONS FOR WARRANTY MANAGER SERVICE
This benefit applies only to you, the eligible Visa Signature cardholder, and to whomever receives the eligible
gifts you purchase entirely with your eligible Visa Signature card.
You shall use due diligence and do all things reasonable to avoid or diminish any loss or damage to property
protected by this benefit. This provision will not be unreasonably applied to avoid claims.
If you make any claim knowing it to be false or fraudulent in any respect including, but not limited to, the cost
of repair services, no benefit shall exist for such claim and your benefits may be canceled. Each claimant
agrees that representations regarding claims will be accurate and complete. Any and all relevant provisions
shall be void in any case of fraud, intentional concealment, or misrepresentation of material fact.
Once you report an occurrence, a claim file will be opened and shall remain open for six (6) months from the
date of the damage or theft. No payment will be made on a claim that is not completely substantiated in the
manner required by the Benefit Administrator within six (6) months of the date of product failure.
After the Benefit Administrator has paid your claim, all your rights and remedies against any party in respect
of this claim will be transferred to the Benefit Administrator to the extent of payment made to you. You must
give the Benefit Administrator all assistance as may reasonably be required to secure all rights and remedies.
No legal action for a claim may be brought against the Provider until sixty (60) days after the Provider receives
Proof of Loss. No legal action against the Provider may be brought more than two (2) years after the time for
giving Proof of Loss. Further, no legal action may be brought against the Provider unless all the terms of this
Guide to Benefits have been complied with fully.
The benefit is provided to eligible Visa Signature cardholders at no additional cost. The terms and conditions
contained in this Guide to Benefits may be modified by subsequent endorsements. Modifications to the
terms and conditions may be provided via additional Guide to Benefits mailings, statement inserts, or
statement messages. The benefits described in this Guide to Benefits will not apply to Visa Signature
cardholders whose accounts have been suspended or canceled.

2

Continued on page 3 

Warranty Manager Service, continued
Termination dates may vary by financial institutions. Your financial institution can cancel or non-renew
the benefits, and if they do, they will notify you at least thirty (30) days in advance. This information is a
description of the benefit provided to you as a Visa Signature cardholder. Indemnity Insurance Company of
North America (“Provider”) is the underwriter of this benefit and is solely responsible for its administration
and claims. The Benefit Administrator provides services on behalf of the Provider.
FORM #VWMGR 10K-50K-3YR – 2013 (04/14)						

WMGR-S

Travel and Emergency Assistance Services
What is this benefit?
This benefit offers services designed to help you in case of an emergency while traveling. The Benefit
Administrator can connect you with the appropriate local emergency and assistance resources available
when you are away from home, 24 hours a day, 365 days a year. (Please keep in mind that, due to occasional
issues such as distance, location, or time, neither the Benefit Administrator nor its service providers can be
responsible for the availability, use, cost, or results of any medical, legal, transportation, or other services.)
Who is eligible for this benefit?
You are eligible if you are a valid cardholder of an eligible Visa Signature card issued in the United States. Your
spouse and children [provided children are dependents under twenty-two (22) years old] may all benefit from
these special services.
How do I use these services when I need them?
Simply call the toll-free, 24-hour Benefit Administrator line at 1-800-397-9010. If you are outside
the United States, call collect at 303-967-1093.
Is there a charge for these services?
No. Travel and Emergency Assistance Services are available to eligible Visa Signature cardholders at no
additional charge.
Please Note: Travel and Emergency Assistance Services provide assistance and referral only. You
are responsible for the cost of any actual medical, legal, transportation, cash advance, or other
services or goods provided.
What are the specific services and how can they help me?
 Emergency

Message Service can record and
relay emergency messages for travelers, their
immediate family members, or business associates.
Please Note: The Benefit Administrator will use
reasonable efforts to relay emergency messages in
accordance with benefit guidelines and limitations,
but cannot take responsibility for the failure to
transmit any message successfully.
 Medical

Referral Assistance provides medical
referral, monitoring, and follow-up. The Benefit
Administrator can give you names of local
English-speaking doctors, dentists, and hospitals;
assign a doctor to consult by phone with local
medical personnel, if necessary, to monitor your
condition; keep in contact with your family, and
provide continuing liaison; and help you arrange
medical payments from your Visa Signature or
personal account. Please Note: All costs are your
responsibility.
 Legal

Referral Assistance can arrange contact
with English-speaking attorneys and U.S.
embassies and consulates if you’re detained by
local authorities, have a car accident, or need legal
assistance. In addition, the Benefit Administrator can
coordinate bail payment from your Visa Signature
or personal account. The Benefit Administrator
can also follow up to make sure bail has been
properly handled. Please Note: All costs are your
responsibility.
 Emergency

Transportation Assistance can help you
make all the necessary arrangements for emergency
transportation home or to the nearest medical facility.
This includes arranging to bring your young children
home and helping you stay in contact with family
members or employers during the emergency. In the

3

case of a death, the Benefit Administrator can make
arrangements to repatriate the remains. Please Note: All
costs are your responsibility.
 Emergency

Ticket Replacement helps you
through your carrier’s lost ticket reimbursement
process and assists in the delivery of a replacement
ticket to you should you lose your ticket. Please
Note: All costs are your responsibility.
 Lost

Luggage Locator Service can help you through
the common carrier’s claim procedures or can arrange
shipment of replacement items if an airline or common
carrier loses your checked luggage. Please Note: You
are responsible for the cost of any replacement items
shipped to you.
 Emergency

Translation Service provides
telephone assistance in all major languages and
helps find local interpreters, if available, when you
need more extensive assistance. Please Note: All
costs are your responsibility.
 Prescription

Assistance and Valuable
Document Delivery Arrangements can help
you fill or replace prescriptions, subject to local
laws, and can arrange pickup and delivery of
prescriptions filled for you at local pharmacies. It
can also help transport critical documents that you
may have left at your home or elsewhere. Please
Note: All costs are your responsibility.
 Pre-Trip

Assistance can give you information
on your destination before you leave — such
as ATM locations, currency exchange rates,
weather reports, health precautions, necessary
immunizations, and required passport visas.

Continued on page 4 

Travel and Emergency Assistance Services, continued
ADDITIONAL PROVISIONS FOR TRAVEL AND EMERGENCY ASSISTANCE SERVICES
The benefit described in this Guide to Benefits will not apply to Visa Signature cardholders whose accounts
have been suspended or canceled. The terms and conditions contained in this Guide to Benefits may be
modified by subsequent endorsements. Modifications to the terms and conditions may be provided via
additional Guide to Benefits mailings, statement inserts, or statement messages.
FORM #VTEAS – 2013 (Stand 04/14)						

TEAS-S

Auto Rental Collision Damage Waiver
What is the Auto Rental Collision Damage Waiver (“Auto Rental CDW”) benefit?
The Auto Rental Collision Damage Waiver (“Auto Rental CDW”) benefit offers insurance coverage for
automobile rentals made with your Visa Signature card. The benefit provides reimbursement (subject to the
terms and conditions in this guide) for damage due to collision or theft up to the actual cash value of most
rental vehicles.
Who is eligible for this benefit?
You are eligible only if you are a valid cardholder whose name is embossed on an eligible Visa Signature card
issued in the United States. Only you as the primary renter of the vehicle and any additional drivers permitted
by the auto rental agreement are covered.
What losses are covered?
The benefit provides reimbursement up to the actual cash value of the vehicle as it was originally
manufactured. Most private passenger automobiles, minivans, and sport utility vehicles are eligible, but some
restrictions may apply. Please contact the Benefit Administrator to inquire about a specific vehicle.
Covered losses include:
 Physical damage and/or theft of the covered rental

vehicle
 Valid loss-of-use charges imposed and
substantiated by the auto rental company

 Reasonable and customary towing charges, due

to covered theft or damage, to the nearest
qualified repair facility

Please Note: This benefit only covers vehicle rental periods that neither exceed nor are intended to
exceed fifteen (15) consecutive days within your country of residence or thirty-one (31) consecutive
days outside your country of residence.
How does this coverage work with other insurance?
Within your country of residence, this benefit supplements, and applies excess of, any valid and collectible
insurance or reimbursement from any source. This means that, subject to the terms and conditions of this
benefit, Auto Rental CDW applies to eligible theft or damage or expenses that are not covered by insurance or
reimbursement.
If you do not have personal automobile insurance or any other insurance covering this theft or damage,
this benefit reimburses you for the covered theft or damage as well as valid administrative and loss-of-use
charges imposed by the auto rental company and reasonable towing charges that occur while you are
responsible for the rental vehicle.
If you do have personal automobile insurance or other insurance covering this theft or damage, the Auto
Rental CDW benefit reimburses you for the deductible portion of your personal automobile insurance and any
unreimbursed portion of valid administrative and loss-of-use charges imposed by the auto rental company, as
well as reasonable towing charges resulting from covered theft or damage of the rental vehicle while it is your
responsibility.
What types of rental vehicles are not covered?
The following vehicles are not covered by Auto Rental CDW: expensive, exotic, and antique automobiles;
certain vans; vehicles that have an open cargo bed; trucks; motorcycles, mopeds, and motorbikes; limousines;
and recreational vehicles.
E
 xamples of excluded expensive or exotic
A
 n antique automobile is defined as any vehicle
automobiles include: the Aston Martin, Bentley,
over twenty (20) years old or any vehicle that has
Bricklin, Daimler, DeLorean, Excalibur, Ferrari,
not been manufactured for ten (10) years or more.
Jensen, Lamborghini, Lotus, Maserati, Porsche, and
V
 ans are not covered, with the exception of those
Rolls Royce. However, selected models of BMW,
manufactured and designed specifically as small
Mercedes-Benz, Cadillac, and Lincoln are covered.
group transportation vehicles (for a maximum of
eight (8) people including the driver)
For questions about a specific vehicle, call the Benefit Administrator at 1-800-397-9010.
If you are outside the United States, call collect at 303-967-1093.
What else is not covered?
A
 ny obligation you assume under any agreement
(other than the deductible under your personal auto
policy)
A
 ny violation of the auto rental agreement or this
benefit
 I njury of anyone or damage to anything inside or
outside the rental vehicle
L
 oss or theft of personal belongings
P
 ersonal liability
4

E
 xpenses assumed, waived, or paid by the auto

rental company or its insurer

C
 ost of any insurance or collision damage waiver

offered by or purchased through the auto rental
company
D
 epreciation of the rental vehicle caused by the
incident including, but not limited to “diminished
value”
E
 xpenses reimbursable by your insurer, employer,
or employer’s insurance
Continued on page 5 

Auto Rental Collision Damage Waiver, continued
T
 heft or damage due to intentional acts, or due to

the driver(s) being under the influence of alcohol,
intoxicants, or drugs, or due to contraband or
illegal activities
W
 ear and tear, gradual deterioration, or
mechanical breakdown
 I tems not installed by the original manufacturer
D
 amage due to off-road operation of the rental
vehicle
T
 heft or damage due to hostility of any kind
(including, but not limited to, war, invasion,
rebellion, insurrection, or terrorist activities)
C
 onfiscation by authorities
V
 ehicles that do not meet the definition of covered
vehicles
R
 ental periods that either exceed or are intended
to exceed fifteen (15) consecutive days within your
country of residence or thirty-one (31) consecutive
days outside your country of residence

L
 eases and mini leases
T
 heft or damage as a result of the authorized

driver’s and/or cardholder’s lack of reasonable
care in protecting the rental vehicle before and
after damage occurs (for example, leaving the
vehicle running and unattended)
T
 heft or damage reported more than forty-five (45)
days* from the date of the incident
T
 heft or damage for which a claim form has not
been received within ninety (90) days* from the
date of the incident
T
 heft or damage for which all required
documentation has not been received within three
hundred and sixty-five (365) days from the date of
the incident
T
 heft or damage from rental transactions that
originated in Israel, Jamaica, the Republic of
Ireland, or Northern Ireland

Where am I covered?
This benefit is available in the United States and most foreign countries. However, no benefit is provided
for motor vehicles rented in Israel, Jamaica, the Republic of Ireland, or Northern Ireland. Additionally,
this benefit is not available where precluded by law or in violation of the territory terms of the auto rental
agreement or prohibited by individual merchants. Because regulations vary outside the United States, it
is recommended you check with your auto rental company and the Benefit Administrator before you
travel to make sure Auto Rental CDW will apply.
This benefit is in effect while the rental vehicle remains in your control or in the control of an authorized driver
permitted to operate the rental vehicle in accordance with the rental agreement between you and the auto rental
company. This benefit terminates when the auto rental company re-assumes control of the rental vehicle.
How do I make sure my Auto Rental CDW benefit is in effect?
To be sure you are covered, take the following steps when you rent a vehicle:
and complete the entire rental
1 Initiate
transaction with your eligible Visa Signature
card.

2

Decline the auto rental company’s collision damage
waiver (CDW/LDW) option or similar provision.

Helpful tips:
 Be sure to check the rental vehicle for prior damage before leaving the rental lot.
R
 eview the auto rental agreement carefully to make sure you are declining CDW/LDW and are
familiar with the terms and conditions of the auto rental agreement.
What if the auto rental company insists that I purchase the auto rental company’s auto insurance or
collision damage waiver?
Call the Benefit Administrator for help at 1-800-397-9010. If you are outside the United States,
call collect at 303-967-1093.

Filing an Auto Rental CDW Claim
What do I do if I have an accident or the rental vehicle is stolen?
Immediately call the Benefit Administrator at 1-800-397-9010 to report the theft or damage regardless of
whether your liability has been established. If you are outside the United States, call collect at 303-9671093. The Benefit Administrator will answer any questions you or the auto rental company may have and will
send you a claim form.
When should I report an incident?
You should report theft or damage as soon as possible, but no later than forty-five (45) days* from
the date of the incident. The Benefit Administrator reserves the right to deny any claim that contains charges
that would not have been included had the Benefit Administrator been notified before those expenses were
incurred, so you are advised to notify the Benefit Administrator immediately after any incident.
Please Note: You must make every reasonable effort to protect the rental vehicle from theft or damage.
As the cardholder you are responsible for reporting your claim to the Benefit Administrator immediately.
Reporting an incident to someone other than the Benefit Administrator will not fulfill this obligation.

5

Continued on page 6 

Auto Rental Collision Damage Waiver, continued
What do I need from the auto rental company in order to file a claim?
At the time of the theft or damage, or when you return the rental vehicle, immediately ask the auto rental
company for:
A
 copy of the accident report form and claim
A
 copy of the repair estimate and itemized
document, which should indicate the costs you are
repair bill
responsible for and any amounts that have been
T
 wo (2) photographs of the damaged vehicle, if
paid toward the claim
available
A
 copy of the initial and final auto rental
 A police report, if obtainable
agreement(s)
How do I file a claim?
Submit the documents gathered from the auto rental company (listed above) along with the following
additional documents to the Benefit Administrator:
the costs for which you are responsible and
T
 he completed and signed Auto Rental CDW claim
any amounts that have been paid toward the
form. Please Note: Your completed claim form must
claim. Or, if you have no applicable insurance
be postmarked within ninety (90) days* of the date
or reimbursement, a notarized statement of no
of the theft or damage, even if all other required
insurance or reimbursement is required.
documentation is not yet available, or your claim
may be denied.
A
 copy of your automobile insurance policy’s
Declarations Page. “Declarations Page” means
A
 copy of your receipt or monthly billing statement
the document(s) in your insurance policy that lists
as proof that the entire vehicle rental was charged
names, coverages, limits, effective dates and
and paid for with your eligible Visa Signature card
deductibles.
A
 statement from your insurance carrier (and/or
A
 ny other documentation deemed necessary by
your employer or employer’s insurance carrier,
the Benefit Administrator to substantiate the claim
if applicable) or other reimbursement showing
Please Note: All remaining documents must be postmarked within three hundred and sixty-five (365) days of
the date of theft or damage. If you have difficulty obtaining the required documents within ninety (90) days* of
the date of theft or damage, submit the claim form with available documentation.
For faster filing, or to learn more about Auto Rental CDW, visit www.visa.com/eclaims
Do I have to do anything else?
Usually there is nothing else you need to do. Typically, claims will be finalized within fifteen (15) days after the Visa
Signature Auto Rental CDW Benefit Administrator has received all documentation necessary to fully substantiate
your claim.
After the Benefit Administrator has paid your claim, all your rights and remedies against any party in respect of
this theft or damage will be transferred to the Benefit Administrator to the extent of the cost of payment made to
you. You must give the Benefit Administrator all assistance as may reasonably be required to secure all rights and
remedies.
* Not applicable to residents of certain states.
ADDITIONAL PROVISIONS FOR AUTO RENTAL CDW
You must make every effort that would be made by a reasonable and prudent person to protect the rental
vehicle from theft or damage. This provision will not be unreasonably applied to avoid claims.
If you make any claim knowing it to be false or fraudulent in any respect including, but not limited to, the cost
of repair services, no coverage shall exist for such claim and your benefits may be canceled. Each cardholder
agrees that representations regarding claims will be accurate and complete. Any and all relevant provisions
shall be void in any case of fraud, intentional concealment, or misrepresentation of material fact.
Once you report an occurrence, a claim file will be opened and shall remain open for six (6) months from the
date of the incident/occurrence. No payment will be made on a claim that is not completely substantiated
in the manner required by the Benefit Administrator within twelve (12) months of the date of the incident/
occurrence.
No legal action for a claim may be brought against the Provider until sixty (60) days after the Provider receives
Proof of Loss. After the expiration of three (3) years from the time written Proof of Loss was to be provided, no
action shall be brought to recover on this benefit. Further, no legal action may be brought against the Provider
unless all the terms of this Guide to Benefits have been complied with fully.
This benefit is provided to eligible Visa Signature cardholders at no additional cost. The terms and conditions
contained in this Guide to Benefits may be modified by subsequent endorsements. Modifications to the terms
and conditions may be provided via additional Guide to Benefits mailings, statement inserts, or statement
messages. The benefit described in this Guide to Benefits will not apply to Visa Signature cardholders whose
accounts have been suspended or canceled.
Termination dates may vary by financial institution. Your financial institution can cancel or non-renew the
benefit, and if they do, they will notify you at least thirty (30) days in advance. This information is a description
of the benefit provided to you as a Visa Signature cardholder. Indemnity Insurance Company of North America
(“Provider”) is the underwriter of this benefit and is solely responsible for its administration and claims. The
Benefit Administrator provides services on behalf of the Provider.
FORM #VARCDW – 2013 (Stand 04/14)					

ARCDW-S

For more information about the benefits described in this
guide, call the Benefit Administrator at 1-800-397-9010,
or call collect outside the U.S. at 303-967-1093.
© 2006–2013 Visa. All Rights Reserved.

6

visa.com
m-115578

